Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of Medicaid Overpayments at North Country Associates, Inc., in Maine for Calendar Years 2004 Through 2006
August 13, 2008 | Audit A-01-07-00012
Executive Summary
The Maine Department of Health and Human Services (the State agency) made overpayments totaling $618,000 ($400,000 Federal share) because the State agency did not adjust its Medicaid per diem payments to North Country Associates, Inc., by the amount of beneficiaries' cost-of-care contribution from other resources, such as Social Security and pensions.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS